Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




            SAMHSA’S
 ADMINISTRATION OF GRANTS




                     Daniel R. Levinson
                      Inspector General

                       February 2012
                      OEI-07-10-00220
EXECUTIVE SUMMARY: SAMHSA’S ADMINISTRATION OF GRANTS
OEI-07-10-00220


WHY WE DID THIS STUDY

In 2009, the period of our review, the Substance Abuse and Mental Health Services
Administration (SAMHSA) administered 2,281 discretionary grants, which ranged from
approximately $17,000 to $7 million for a total of $906.8 million. This study is part of a
body of work by the Office of Inspector General (OIG) on grants administration to ensure
the appropriate stewardship of Federal funds. OIG has not previously evaluated
SAMHSA’s grants administration.

HOW WE DID THIS STUDY

Using SAMHSA grantee data, we selected a sample of 130 discretionary grants. We
reviewed the files for these grants to determine the extent to which SAMHSA maintains
grant files in accordance with Federal requirements. We then surveyed SAMHSA staff
and the grantee project directors to describe SAMHSA’s interactions with grantees.

WHAT WE FOUND

SAMHSA maintains grant files in accordance with Federal requirements. We were able
to follow the grant “paper trail” and identify required documents; however, a few grant
files were missing initial applications, continuation applications, and Financial Status
Reports. Most SAMHSA staff and grantee project directors reported positive interactions
with one another; however, some SAMHSA staff and grantee project directors identified
obstacles to communication.

WHAT WE CONCLUDE

Given the overall completeness and quality of the grant files and the low incidence of
identified problems, we are not making formal recommendations to SAMHSA. Still, we
encourage SAMHSA to strive to obtain and maintain all required documents. Also,
SAMHSA may want to use information from this report to improve interactions between
SAMHSA staff and the grantee project directors. SAMHSA concurred with our report as
written and provided no further comments.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................8
           Almost all SAMHSA grant files were maintained in
           accordance with Federal requirements.............................................8
           Most SAMHSA staff and grantee project directors reported
           positive interactions; however, some SAMHSA staff and grantee
           project directors identified obstacles to communication ...............10
Conclusion .................................................................................................13
Agency Comments and Office of Inspector General Response.................13
Appendixes ................................................................................................14
           A: Point Estimates and Confidence Intervals for Selected
           Statistics .........................................................................................14
           B: Additional Grantee Requirements Found in Notices of
           Grant Awards .................................................................................15
           C: Examples of Agency-Grantee Communication Found
           in Sampled Grant Files...................................................................16
           D: Agency Comments ...................................................................17
Acknowledgments......................................................................................18
             OBJECTIVES
             1. To determine the extent to which the Substance Abuse and Mental
                     Health Services Administration (SAMHSA) maintains grant files in
                     accordance with Federal requirements, and
             2. To describe SAMHSA’s interactions with grantees.


             BACKGROUND
             SAMHSA was established in 1992 to target substance abuse and mental
             health services to the people most in need of such services. In calendar
             year 2009, the period of this review, SAMHSA administered
             2,281 discretionary grants, which ranged from approximately $17,000 to
             $7 million for a total of $906.8 million.1 In fiscal year (FY) 2011,
             SAMHSA awarded grants totaling $3.1 billion, including both
             discretionary and block grants. SAMHSA grants typically last 3 to
             5 years. 2
             SAMHSA Grant Administrative Requirements
             SAMHSA conveys administrative requirements governing grants through
             documents such as grant applications, Notices of Grant Awards,
             continuation applications, and Financial Status Reports. 3
             Applications. According to the GPD, an application is “a request for
             financial support of a project, program or activity submitted to HHS on
             specified forms and in accordance with instructions provided by the HHS
             awarding office.” 4 Potential grantees, such as State agencies, tribal




             1
               We did not include mandatory block grants or mandatory formula grants in this study. Discretionary grants
             are those for which the Operating Division may exercise judgment (“discretion”) in determining the recipient
             and the amount of the award. Block grants, which have minimal Federal administrative requirements or
             restrictions, typically give States substantial discretion over the type of activities that the grants support.
             Formula grants use a formula to determine the amount provided; to obtain a formula grant, a State must provide
             a plan/application indicating how it plans to use this amount. HHS Grants Policy Statement (GPS), I-3. HHS
             Grants Policy Directive (GPD) 1.02.
             2
                  SAMHSA Fiscal Year 2011 Justification of Estimates for Appropriations Committees.
             3
               Three regulations provide uniform administrative requirements for HHS grants: 45 CFR pt. 74 applies to
             institutions of higher education, hospitals, other nonprofit organizations, and commercial organizations;
             45 CFR pt. 92 applies to State, local, and tribal governments; and 45 CFR pt. 96 applies to block grants (which
             our sample did not include). Additionally, HHS GPDs, the Grants Policy Statement, and the awarding agency
             Grants Administration Manual (AAGAM) establish further requirements for HHS grant programs. The GPDs
             direct Department staff regarding HHS’s policies, standards, and procedures. The AAGAM implements the
             GPDs. The GPS also provides grantees with up-to-date policy guidance and information on HHS and its
             discretionary grant process. The GPS is generally made binding on grantees through the grant terms and
             conditions.
             4
                  HHS GPD 1.02. January 1, 2007.


OEI-07-10-00220            SAMHSA’s Administration of Grants                                                               1
             organizations, and local organizations, submit grant applications to request
             funding to operate programs that further the mission of SAMHSA.
             Notice of Grant Award. SAMHSA issues each grantee a Notice of Grant
             Award that describes the terms and conditions of its grant. SAMHSA uses
             Notices of Grant Award throughout the grant period to inform grantees of
             changes in the grant amounts awarded and/or additional conditions placed
             on the grants, such as a requirement to submit additional reports.
             Continuation Applications. On an annual basis, SAMHSA grantees must
             submit continuation applications to indicate progress made on their
             projects and to request further grant funds. Each continuation application
             should compare accomplishments to the grantee goals and milestones
             established for the budget period. The continuation application should
             also include, if applicable, an explanation of the reasons the grantee did
             not meet the goals and/or milestones. Federal regulation requires grantees
             to submit continuation applications before the next budget period begins. 5
             To improve SAMHSA’s workflow, SAMHSA requires grantees to submit
             continuation applications earlier than Federal regulations require.
             Financial Status Reports. Financial Status Reports document the financial
             status of the award. Financial Status Reports must be submitted 90 days
             after the annual budget period ends, and a final Financial Status Report
             must be submitted 90 days after the project period ends. 6
             SAMHSA’s Responsibilities
             To fulfill its role with regard to the stewardship of Federal funds,
             SAMHSA grants management and program staff assess grantee
             performance by reviewing grant file documents, such as continuation
             applications, Financial Status Reports, and related documents. 7
             Grant File Documentation. The GPD requires grant-awarding agencies to
             create and maintain grant files. 8 A third-party reviewer should be able to
             follow the paper trail for the grant from the grant application through the



             5
              HHS GPS, pp. i-17.34, and Supplementary Instructions for the Continuation Application Process,
             HHS-5161-1 (revised August 2007).
             6
               45 CFR §§ 74.52(a) and 92.41(b). SAMHSA uses the project period system of funding for discretionary
             grants it awards. Under this system, projects are programmatically approved for support in their entirety, but
             are funded in annual increments called budget periods. The total project period consists of the initial
             competitive segment and the budget periods for the grant. In the Federal Financial Report Instructions issued
             by SAMHSA, project periods are also referred to as “grant periods.” Accessed at
             http://www.samhsa.gov/dtac/CCPtoolkit/pdf/FFR-425_instructions.pdf on October 31, 2011. The Federal
             Financial Report (FFR, or Standard Form 425) replaced the Financial Status Report beginning in FY 2011. The
             due dates remain the same.
             7
                  HHS GPD 3.06.
             8
                  Ibid.


OEI-07-10-00220           SAMHSA’s Administration of Grants                                                              2
             grant’s closeout, including decisions made and actions taken in between.
             An official file must be created for each grant and must contain the
             following documentation, as applicable:
             •      signed copies of applications and all documentation related to review
                    and approval of the applications,
             •      all Notices of Grant Awards,
             •      postaward correspondence,
             •      site visit reports,
             •      records of telephone calls and postaward technical assistance provided,
             •      documentation related to enforcement actions, 9
             •      required continuation applications and Financial Status Reports,
             •      evidence of awarding agency review and acceptance of continuation
                    applications and Financial Status Reports, and
             •      closeout documentation. 10
             High-Risk Grantees. SAMHSA may designate a grantee as high risk if the
             grantee has a history of poor performance, poor business practices,
             financial instability, or inadequate management systems. 11 SAMHSA may
             make this designation at the time of the award or after awarding the grant.
             Federal regulations list the special award conditions that may be imposed
             on high-risk grantees, but the regulations do not specify which special
             award conditions must be imposed. 12 SAMHSA uses the Notice of Grant
             Award to indicate what, if any, special conditions are placed on the
             grantee. Grantees must comply with the conditions to resolve their
             high-risk designation. Some grantees may resolve issues quickly, thus
             ending their high-risk designation, while others may require considerably
             longer periods.
             SAMHSA Interaction With Grantees
             SAMHSA Grants Management Specialists (GMS) and Project Officers
             (PO) are the primary individuals who interact with grantees—typically,
             with the grantee project directors. Interactions can focus on grants



             9
               SAMHSA may impose enforcement actions on grants awarded to grantees to ensure compliance with Federal
             rules and regulations. 45 CFR §§ 74.62(a) and 92.43(a).
             10
                Official files must also contain a review of any deviations from the approved grant and prior approval
             requests. GPD 3.06. A deviation includes any activity disapproved or restricted as a condition of the award.
             We did not include identification of deviations in our grant file review.
             11
                  45 CFR §§ 74.14 and 92.12.
             12
                  45 CFR §§ 92.12 and 74.14.


OEI-07-10-00220           SAMHSA’s Administration of Grants                                                                 3
             monitoring or providing technical assistance. HHS grants policy creates a
             responsibility for SAMHSA to provide consultation and technical
             assistance to grantees, although no Federal requirements exist regarding
             frequency or types of interactions. 13
             GMSs’ Interactions. GMSs ensure that Federal financial and
             programmatic interests are protected by assessing grantees’ financial
             performance and business management capabilities. The type of oversight
             activity required varies according to the type of award and whether the
             grantee has been designated as high risk. 14 GMSs are responsible for
             reviewing requests for reimbursement, as necessary; maintaining
             documentation of corrective actions, if any, taken by the recipient; and
             monitoring documentation of assistance to the recipient in resolution of
             any identified deficiencies. 15 GMSs are responsible for monitoring report
             due dates and following up on delinquent reports. 16 GMSs’ activities
             include working with the POs, other SAMHSA officials, and the grantees
             to develop, as necessary, corrective action plans; monitor improvement;
             and arrange appropriate technical assistance.
             POs’ Interactions. POs monitor the conduct and progress of grants.
             POs collaborate with grantees in the planning and implementation of the
             grant and in evaluation activities. POs interactions with grantees might
             include answering questions about specific policies, advising grantees on
             programmatic issues, providing technical assistance, and requesting
             clarification of any required documents as necessary.

             METHODOLOGY
             Data Collection and Analysis
             Our methodology included two principal elements: (1) reviews of grant
             files and (2) surveys of the GMSs, POs, and grantee project directors
             responsible for administering sampled grants. Of the 2,281 discretionary
             grants funded by SAMHSA in 2009, we selected a stratified random
             sample of 130 grants. We then reviewed the complete grant files for each
             sampled grant to determine the extent to which SAMHSA maintained
             grant files in accordance with Federal requirements. Additionally, we




             13
                  GPD 3.06, AAGAM 3.06.106. HHS GPS, p. I-5, January 1, 2007.
             14
                The terms and conditions of the award reflect the type of award and whether the grantee has been designated
             high risk. SAMHSA Grants: Standard Terms and Conditions of Award. Accessed at http://www.samhsa.gov
             on October 18, 2010.
             15
                  AAGAM § 2.01.101-7C.
             16
                  HHS GPD 3.06. Accessed at http://dhhs.gov/asfr/ogapa/aboutog/ogpoe/gpdhome.html on August 25, 2011.


OEI-07-10-00220           SAMHSA’s Administration of Grants                                                               4
             surveyed the GMSs, POs, and grantee project directors associated with the
             sampled grants to describe SAMHSA’s interactions with grantees.
             Scope
             This evaluation reviewed a sample of SAMHSA discretionary grants
             funded during 2009. We did not seek to determine the appropriateness of
             SAMHSA’s awarding of the grants or the appropriateness of SAMHSA’s
             designation of high-risk grantees. We also did not seek to determine the
             accuracy of the information in required reports or appropriateness of
             grantee expenditures, nor did we seek to independently validate survey
             responses.
             Sample Selection
             We requested from SAMHSA a list of grants that received funding in
             2009. From this list, we selected a stratified random sample of 130 of the
             2,281 SAMHSA discretionary grants as shown in Table 1. Stratum 1
             contained 2,157 grants awarded to grantees that SAMHSA never
             designated as high risk, and Stratum 2 contained 124 grants awarded to
             grantees that SAMHSA designated prior to December 31, 2009, as high
             risk. We selected a stratified random sample of 100 grants from
             Stratum 1 and 30 grants from Stratum 2. We chose to stratify based on the
             designation of risk status in an effort to determine whether differing
             reporting requirements affected the contents of grant files and levels of
             interaction with SAMHSA. We found that grant file documentation was
             substantial for both grantee strata, and we were unable to identify specific
             differences between the two strata with regard to the amount and type of
             documented communication in the grant files.
             Table 1: SAMHSA Grant Population and Sample Size for 2009
                                                                      Population
                  Strata Definition                                                Sample Size
                                                                            Size

                  1. Grants to Grantees Not Designated as High Risk        2,157          100

                  2. Grants to Grantees Designated as High Risk             124            30

                     Total                                                 2,281          130

                  Source: SAMHSA grant information, 2011.


             We projected the results of our grant file reviews to the universe of
             2,281 grants awarded in 2009.
             Grant File Reviews
             We reviewed the official grant files for all of the 130 grants in our sample
             to determine whether SAMHSA maintained them in accordance with
             Federal requirements. Specifically, we sought to determine the extent to
             which the grant files enabled a third party to follow the paper trail for
             SAMHSA grants. We reviewed these files to determine whether

OEI-07-10-00220              SAMHSA’s Administration of Grants                                   5
             SAMHSA ensured that grantees submitted required documents and
             whether grantees complied with any special award requirements. We also
             reviewed grant files for evidence that SAMHSA reviewed and approved
             submitted documents and for evidence of interactions between SAMHSA
             and grantees. For each grant file we reviewed, we completed a review
             form in which we indicated which documents we found in the file.
             To determine the level and type of interactions between SAMHSA and
             grantees as documented in the grant files, we reviewed letters, emails,
             telephone logs, and notes that SAMHSA staff made regarding the grants.
             Required Reports. We reviewed the grant files to determine whether
             required Notices of Grant Award were included. When these notices were
             present, we reviewed them for the amount or change in the amount of the
             grant awards and any additional conditions imposed upon grantees.
             We also reviewed the grant files to determine whether required
             continuation applications:
             •    were in the grant files and had been submitted timely;
             •    compared accomplishments with grantee goals and milestones
                  established for the budget period; and
             •    explained why grantee goals and milestones were not met, if
                  applicable.
             Finally, we determined whether required Financial Status Reports were in
             the grant files and had been received within 90 days after the close of the
             budget period. For continuation applications and Financial Status Reports,
             we reviewed correspondence in the grant files to determine whether
             SAMHSA staff followed up with grantees on late reports.
             To determine the extent to which SAMHSA actively monitored grants, we
             reviewed the grant files for evidence that SAMHSA reviewed required
             reports. We considered evidence of review to be signatures on required
             reports, emails regarding reports in the grant files, and/or records of
             telephone calls with grantees related to required reports.
             Because none of the sampled grantees had closed out their grants, we did
             not review the grant files for closeout documentation.
             GMS and PO Surveys
             We surveyed the 18 GMSs and 75 POs assigned to the 130 sampled
             grants. We received responses from all 18 GMSs and, with the assistance
             of SAMHSA officials and after repeated attempts, 66 POs assigned to




OEI-07-10-00220       SAMHSA’s Administration of Grants                                 6
             97 grants. 17 We asked GMSs and POs questions about their experiences
             collecting grant file documents and about their interactions with grantees.
             We asked specifically about grantees’ responsiveness, timeliness, and the
             completeness of their responses. We asked GMSs and POs whether any
             additional or different interactions would be helpful. We also asked GMSs
             and POs about their experiences monitoring and interacting with high-risk
             grantees. We received from SAMHSA the names and contact information
             for the GMS and PO assigned to each of the grants in 2009. However,
             because SAMHSA regularly reassigns staff to different grants, sometimes
             more than one GMS and/or PO was assigned to the same grant. For this
             reason, we did not project the result of our surveys to SAMHSA staff.
             Grantee Surveys
             For each of 130 of the sampled grants, we asked SAMHSA to identify the
             corresponding project director and provide his or her contact information
             during the grant project period. 18 We then asked 127 of those grantee
             project directors to complete an online survey. We asked questions about
             their interactions with GMSs and POs, and asked whether any additional
             or different interactions would have been helpful. We also asked project
             directors about their experiences submitting required documents. For
             grantees designated as high risk, we asked the project directors about their
             efforts to comply with the additional award conditions placed on their
             grants and their interactions with SAMHSA concerning their high-risk
             designations. We received responses from 121 of the 127 project
             directors.
             Using similar survey questions, we compared the responses from
             SAMHSA staff with those from grantee project directors to verify the
             frequency and types of their interactions with one another. To further
             describe the frequency and types of interactions, we compared letters,
             emails, and notes from telephone calls in the grant files to the survey
             responses from SAMHSA staff and grantee project directors.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.


             17
               SAMHSA staff indicated that the nonresponding POs were out of the office during our survey period
             because of medical issues, work-related issues (such as site visits), or retirement.
             18
                We did not email electronic surveys to 3 of the project directors of the 130 grants in our sample. In one of
             these instances, we were unable to contact the one project director because of an ongoing OIG investigation, but
             we reviewed the official grant file and surveyed the assigned GMS and PO. In another case, we attempted to
             contact the identified project director, but the grant period had ended in September 2010 and the grant was no
             longer operational. In the third instance, we were unable to identify the grantee’s correct contact information.


OEI-07-10-00220          SAMHSA’s Administration of Grants                                                                 7
             FINDINGS
             Almost all SAMHSA grant files were maintained in
             accordance with Federal requirements
             The GPD requires grant-awarding agencies to create and maintain an
             official file for each grant, containing certain documentation, as
             applicable. 19 As third-party reviewers, we were able to follow the grant
             paper trail for all grants. We easily identified sections of the grant files
             containing grant applications, Notices of Grant Awards, continuation
             applications, Financial Status Reports, and correspondence between
             SAMHSA and grantees. We also found evidence that clearly
             demonstrated that SAMHSA staff reviewed and approved
             grantee-submitted documents and took action to obtain missing
             documents.
             Grant files contained most, but not all, required documents
             Most grant files contained required documents, but a few were missing
             initial applications, continuation applications, or Financial Status Reports.
             Table 2 summarizes the information we found in the files for the sampled
             grants. Appendix A presents the point intervals and confidence intervals
             for all population estimates.
             Table 2: Contents of Grant Files
                                                                                     Projected
                  Required Document                                              Percentage of
                                                                                   Grant Files*
                  Application                                                                 98

                  Notice(s) of Grant Award                                                  100

                  Continuation application                                                    98

                  Financial Status Report                                                     97

                  Source: OIG review of sample grant files, 2011.

                  * Projection is based on 130 reviewed grant files.

             Applications. Ninety-eight percent of grant files contained applications.
             Two grant files in our sample that were missing applications had
             originated with the Department of Justice (DOJ) and been transferred to
             SAMHSA. SAMHSA staff reported that DOJ retained the applications for
             these grants; however, we did not verify this statement. We noted that
             SAMHSA did not maintain copies of the applications.




             19 HHS GPD § 3.06. Accessed at http://dhhs.gov/asfr/ogapa/aboutog/ogpoe/gpdhome.html on
             August 25, 2011.


OEI-07-10-00220              SAMHSA’s Administration of Grants                                         8
             Notices of Grant Awards. All of the sampled grant files contained at least
             one Notice of Grant Award for 2009. 20 In addition to reviewing grant files
             to see whether they contained Notices of Grant Awards, we reviewed the
             content of the notices. This latter review indicated that SAMHSA staff
             identified deficiencies in the operation of some grants, imposed corrective
             actions, and followed up on them. Eighty-two percent of grants contained
             Notices of Grant Awards that placed special award conditions (e.g.,
             revised budget, financial management review) on the grantees. Because of
             the large amount of documented communication in the grant files, we
             were unable to determine whether each corrective action was actively
             monitored. However, we found that 110 grant files contained Notices of
             Grant Awards that placed special award conditions on grantees, which we
             considered to be evidence that SAMHSA was actively monitoring grants.
             For a complete list of the special award conditions that SAMHSA placed
             on grantees, see Appendix B.
             Continuation Applications. Ninety-eight percent of the grant files
             contained continuation applications. All continuation applications we
             reviewed compared accomplishments with the programs’ goals and
             milestones.
             We specifically reviewed grant files for the timeliness of continuation
             applications submitted in 2009. All of the continuation applications were
             timely based on the Federal regulation.
             Financial Status Reports. Approximately 4 percent of grant files were
             missing Financial Status Reports. We were unable to determine why the
             files did not include these reports. In the grant files that contained
             Financial Status Reports, 70 percent of the reports had been submitted
             timely. We were unable to determine whether the remaining 30 percent
             had been submitted timely because some grants had multiple reports
             submitted in the same time period and we were unable to identify the
             original submitted report.
             Postaward Correspondence. SAMHSA’s grant files include a separate
             section for postaward correspondence. We reviewed files for postaward
             correspondence, such as letters, documentation of email exchanges
             between SAMHSA and grantees, and notes related to telephone calls.
             Postaward correspondence included communication between SAMHSA
             and grantees regarding topics such as budgets, late reports, changes in



             20
                Notices of Grant Awards can be revised because of changes in the grant amount, imposition of additional
             requirements on a grantee, or designation of a grantee being designated as high risk. Consequently, we
             expected to find multiple notices in some grant files.


OEI-07-10-00220         SAMHSA’s Administration of Grants                                                                 9
             grantee personnel, upcoming closeouts of grants, and site visits. For a list
             of the types of postaward correspondence we found, see Appendix C.

             Most SAMHSA staff and grantee project directors
             reported positive interactions; however, some
             SAMHSA staff and grantee project directors identified
             obstacles to communication
             SAMHSA and grantee project directors reported positive interactions;
             however, both groups reported opportunities for improvement. Obstacles
             such as lack of staff availability, technical assistance, and quality of
             response were some of the specific areas identified as needing
             improvement.
             SAMHSA staff and grantee project directors reported positive
             interactions and helpful technical assistance
             Interactions. SAMHSA staff and grantee project directors reported
             positive interactions with one another. GMSs and POs reported that
             grantees responded timely and completely to requests. Table 3 shows how
             GMSs and POs rated their interactions with grantees.
             Table 3: GMS/PO Perceptions of Interactions With Grantees
                  Statement                                          Number of GMSs/POs in Agreement
                                                                        GMSs (n=18)        POs (n=66)
                  Grantee is responsive                                          17                64
                  Grantee responses are timely                                   15                61
                  Grantee responses are complete                                 12                63
                  Grantee communicates well                                      17                61
                  Turnover among grantee staff has caused problems                3                 5
                  Source: OIG review of sampled grant files, 2011.

             Most grantee project directors reported that their GMSs and POs
             responded timely and completely to requests. Table 4 shows how grantee
             project directors rated their interactions with GMSs and POs.
             Table 4: Grantee Project Directors’ Perceptions of Interactions
             With GMSs and POs
                                                                            Number of Grantee Project
                  Statement
                                                                        Directors in Agreement (n=120)
                                                                     Regarding GMSs    Regarding POs
                  GMS/PO is responsive                                           92               110
                  GMS/PO responses are timely                                    81                97
                  GMS/PO responses are complete                                  87                97
                  GMS/PO responses occur at appropriate frequency                84                93
                  GMS/PO turnover has caused problems                            30                17
                  Source: OIG review of sampled grant files, 2011.




OEI-07-10-00220             SAMHSA’s Administration of Grants                                            10
             Technical Assistance. Of the grantee project directors responding to our
             survey, 96 percent reported that the technical assistance they received
             from SAMHSA staff was helpful. The most common issues for which
             project directors reported requesting technical assistance were what the
             required documents should contain, what the reporting requirements were,
             and when prior approval was needed.
             SAMHSA staff and grantee project directors reported some
             obstacles
             SAMHSA staff and grantee project directors identified obstacles to
             interaction and suggested improvements in technical assistance to grantees
             and quality of response between SAMHSA staff and grantees.
             Three of eighteen GMSs reported experiencing obstacles to interactions
             with grantees—specifically, lack of grantee skill and technology
             limitations. Of the 66 POs responding to our survey, 9 reported
             experiencing obstacles to interactions with grantees; the most commonly
             reported obstacle was availability of grantees.
             Eighteen percent of grantee project directors responding to our survey
             reported obstacles to interactions with their GMSs. The most common
             obstacles reported were late responses, nonresponse, and GMSs’ lack of
             knowledge. Other obstacles included GMS turnover, inconsistent
             information, and GMSs’ workloads. Fifteen percent of sampled grantee
             project directors who responded to our survey reported obstacles to
             communicating with their POs. The most commonly reported obstacles
             were availability and workload.
             Technical Assistance. Thirteen percent of grantee project directors who
             responded to the survey stated that more technical assistance would be
             helpful. They suggested that receiving more technical assistance shortly
             after issuance of the Notice of Grant Award on basic subjects, such as
             grant administration and required reporting, would have better prepared
             them as grantees.
             Perceived Attitudes of SAMHSA Staff. Ten of the one hundred twenty
             grantee project directors who responded to our survey reported that they
             perceived their GMSs and/or POs had negative attitudes towards grantees.
             One project director suggested “that the [grants management] staff provide
             objective support to the grantees without judgment and conviction. It
             seems that the [grants management] department is very critical of
             programs and it’s obvious in the way they speak to the project staff.”
             Perceived Quality of Response. Six of the one hundred twenty grantee
             project directors who responded to our survey reported that they perceived
             their GMSs and/or POs as lacking a commitment to quality. These project


OEI-07-10-00220      SAMHSA’s Administration of Grants                                  11
             directors described SAMHSA staff as performing only to minimum
             requirements. One project director reported that when asked questions,
             SAMHSA staff provided only short answers. The project director also
             indicated that SAMHSA could be more open and engaged with grantees to
             help better manage their grants.




OEI-07-10-00220     SAMHSA’s Administration of Grants                            12
             CONCLUSION
             SAMHSA maintains grant files in accordance with Federal requirements,
             and most SAMHSA staff and grantee project directors reported positive
             interactions with one another. However, a few grant files did not contain
             all required documents, and a few SAMHSA staff and the grantee project
             directors identified concerns with their interactions and/or suggested
             improvements. Given the overall completeness and quality of the grant
             files and the low incidence of identified problems, we are not making
             formal recommendations to SAMHSA. Still, we encourage SAMHSA to
             strive to obtain and maintain all required documents. Also, SAMHSA
             may want to consider information from this report to improve interactions
             between SAMHSA staff and grantee project directors.

             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             SAMHSA concurred with our report as written and provided no further
             comments. We did not make any changes to the report as a result of the
             agency comments. For the full text of SAMHSA’s comments, see
             Appendix D.




OEI-07-10-00220     SAMHSA’s Administration of Grants                                 13
                       APPENDIX A
                       Table A: Point Estimates and Confidence Intervals for Selected Statistics

Table A: Point Estimates and Confidence Intervals for Selected Statistics


                                                                           Sample        Point   95-Percent Confidence
Grant File Document
                                                                           Size (n)   Estimate                 Interval


Applications in grant files                                                    130       98.5               94.5–99.8


Notice(s) of Grant Awards in grant files                                       130      100.0              95.4–100.0


Notice(s) of Grant Awards with special award conditions                        130       81.8               73.5–88.0


Continuation applications in grant files                                        95       97. 9              92.6–99.7


Continuation applications received on time                                      95      100.0              96.2–100.0


Financial Status Report in grant files                                          94       96.4               89.7–98.8


Financial Status Report missing from grant files                                94        3.6                1.2–10.3


Financial Status Report received on time (and in grant files)                   89       70.5               59.3–79.6


Financial Status Report in grant files, but we were unable to determine
                                                                                89       29.6               20.3–40.7
timeliness


Grantee project directors reporting helpful technical assistance               107       96.2               89.7–98.7


Grantee project directors reporting obstacles to interactions with
                                                                               113       17.9               11.5–26.7
Grants Management Specialists


Grantee project directors reporting obstacles to interactions with
                                                                               119       14.7                9.0–23.1
Project Officers


Grantee project directors reporting that more technical assistance
                                                                               119       12.6                7.4–20.7
would be helpful

Source: Office of Inspector General review of sampled grant files, 2011.




OEI-07-10-00220                    SAMHSA’s Administration of Grants                                        14
                        APPENDIX B
                        Table B: Additional Grantee Requirements Found in Notices of Grant
                        Awards

Table B: Examples of Additional Grantee Requirements Identified in Notices of Grant Awards


Requirements Imposed on Grantees                                                                                                     Total*


Revised budgets                                                                                                                           32


Grantee Financial Management Review                                                                                                       27


Change in personnel                                                                                                                       20


Revised documents                                                                                                                         10


Participant protection procedures                                                                                                          8


Budget justifications                                                                                                                      7


Required missing reports (i.e., Financial Status Reports, continuation applications) and forms                                             7


Indirect Cost Rate Agreement                                                                                                               6


Required technical assistance                                                                                                              5


Government Performance Results Act compliance procedures                                                                                   5


Prior approval of purchases                                                                                                                4


Clinical Laboratory Improvement Amendments certification                                                                                   4


Response to other concerns                                                                                                                 4


Signed tribal resolutions                                                                                                                  3


Clarifying information                                                                                                                     3


Limitation on grantee activities or expenditures                                                                                           2

* Notices of Grant Awards often included multiple additional requirements; therefore, these will not add to the 110 Notices of Grant Awards
found in the grant files. Because we were unable to identify all additional requirements, we are not projecting the results of this analysis.


Source: Office of Inspector General review of sampled grant files, 2011.




OEI-07-10-00220                     SAMHSA’s Administration of Grants                                                                     15
                       APPENDIX C
                       Table C: Examples of Agency-Grantee Communication Found in Sampled
                       Grant Files



Table C: Examples of Topics of Communication Between Substance Abuse and Mental Health Services
Administration Staff and Sampled Grantees
Subject Matter                                                                                                                    Total*

Budget                                                                                                                                40
Carryover                                                                                                                             29
Late Financial Status Reports/other late reports                                                                                      24
Key personnel                                                                                                                         22
Closeout                                                                                                                              15
Indirect Cost Rate Agreements                                                                                                         15
Continuation applications                                                                                                             15
Forms/reports                                                                                                                         14
No-cost extensions                                                                                                                    12
Site visit                                                                                                                            12
Allowable cost                                                                                                                        12
Participant protection                                                                                                                     6
Application process                                                                                                                        6
Financial reviews                                                                                                                          5
Excluded Parties List System** checks                                                                                                      5
Supporting documentation                                                                                                                   5
Special conditions/enforcement actions (corrective action plans)                                                                           4
Cost allocations                                                                                                                           3
Due dates                                                                                                                                  2
Memorandums of Understanding between States and counties                                                                                   2
Federal match rate/cost sharing                                                                                                            2
Rent/real estate                                                                                                                           2
Technical assistance                                                                                                                       2
Tribal resolutions                                                                                                                         1
Needs assessments                                                                                                                          1
Interest expense                                                                                                                           1
Programmatic questions                                                                                                                     1
Extensions to file                                                                                                                         1
Office of Inspector General requests for investigations                                                                                    1
* Correspondence found in grant files often included multiple topics; therefore, these will not add to 130 sampled grant files.

** The Excluded Parties List System identifies those parties excluded throughout the U.S. Government from receiving Federal contracts or
certain subcontracts and from certain types of Federal financial and nonfinancial assistance and benefits.

Source: Office of Inspector General review of sampled grant files, 2011.




OEI-07-10-00220                     SAMHSA’s Administration of Grants                                                                 16
                 APPENDIX D
                 Agency Comments




     ~~SAMiiSA
   1 Chok. CIIo"Y Road' Rockville, MO 20867
           www.aamhsa.~ • ' -877-SAMHSA-1 (1 ,·871-728-4727)




                                                               JAN    4 2012




                TO:                 Daniel R. Levinson, Inspector General
                                    Office of Inspector General (OIG)

                FROM:               Admin istrator

                SUBJECT:            OlG Drafl Report : SAMHSA 's Administration qfGrants, OEI-07-JO­
                                    00220

                The Substance Abuse and Mental Health Services Administration has reviewed the above
                subject document and concurs with the document as written.

                Thank you for the opportunity to comment.

                                                                            /S/
                                                                     ParK€la -S , lJyd~:ro .




     Behavioral Health Is Essential To Health • Prevention Works • Treatment is Effective • People Recover




OEI-07 -10-00220                 SAMHSA's Administration of Grants                                           17
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Brian T. Pattison, Regional
             Inspector General for Evaluation and Inspections in the Kansas City
             regional office; Deborah K. Walden, Deputy Regional Inspector General;
             and Brian T. Whitley, Deputy Regional Inspector General.
             Michael Barrett served as the project leader for this study. Other principal
             Office of Evaluation and Inspections staff from the Kansas City regional
             office who contributed to the report include Tricia Fields, Rae Hutchison,
             and Michala Walker; central office staff who contributed include
             Heather Barton and Kevin Farber.




OEI-07-10-00220      SAMHSA’s Administration of Grants                                 18
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
